              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report


Internal Controls Over the Accountability
of Computers at Sandia National
Laboratory, New Mexico




DOE/IG-0660                                            August 2004
This inspection complements similar work performed by the Office of Inspector General at
several other DOE sites.

MANAGEMENT REACTION

Management concurred with our recommendations and has taken or initiated corrective actions.
Management’s comments are provided in their entirety in Appendix B of the report.

We found management’s comments to be responsive to our report.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Energy, Science and Environment
    Director, Office of Security and Safety Performance Assurance
    Director, Policy and Internal Controls Management
    Director, Office of Program Liaison and Financial Analysis
INTERNAL CONTROLS OVER THE ACCOUNTABILITY OF
COMPUTERS AT SANDIA NATIONAL LABORATORY, NEW
MEXICO

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective         1

              Observations and Conclusions       2


              DETAILS OF FINDINGS

              Nonaccredited Peripheral Devices   3

              Property Management Controls       3

              Other Property Management Issues   4


              RECOMMENDATIONS                    5


              MANAGEMENT COMMENTS                6


              INSPECTOR COMMENTS                 6


              APPENDICES

              A. Scope and Methodology           7

              B. Management Comments             8
Overview

INTRODUCTION    Computers are used extensively in the full range of operations at
AND OBJECTIVE   Sandia National Laboratory (Sandia), Albuquerque, New Mexico, to
                include the processing of classified information. Sandia reported an
                inventory of over 5,400 laptop and 23,800 desktop computers at the
                end of Fiscal Year 2002. Department of Energy (DOE) and Sandia
                property policies identify computers as “sensitive property,” due in
                part to their susceptibility to theft and potential for conversion to
                cash. As such, we believe that management controls over computers
                throughout the DOE complex must remain robust and consistent.
                Therefore, we initiated an inspection of Sandia’s management
                controls over computers. Specifically, the objective of this
                inspection was to determine the adequacy of internal controls over
                desktop and laptop computers at Sandia.

                This inspection complements similar work performed by the Office
                of Inspector General at various DOE sites, the results of which
                may be found in the following reports: “Interim Inspection Report
                on Inspection of Internal Controls Over Personal Computers at Los
                Alamos National Laboratory” (DOE/IG-0597, April 2003);
                “Internal Controls Over Laptop and Desktop Computers at the
                Savannah River Site” (INS-L-03-09, July 29, 2003); “Internal
                Controls Over Classified Computers and Classified Removable
                Media at the Lawrence Livermore National Laboratory”
                (DOE/IG-0628, December 2003); “Management of Sensitive
                Equipment at Selected Locations” (DOE/IG-0606, June 2003); and
                “Internal Controls Over Personal Computers at Los Alamos
                National Laboratory” (DOE/IG-0656, August 2004).




Page 1                             Internal Controls Over the Accountability of
                                   Computers at Sandia National Laboratory,
                                   New Mexico
OBSERVATIONS      We concluded that internal controls over classified and
AND CONCLUSIONS   unclassified desktop, laptop, and related computer equipment at
                  Sandia could be improved. We identified internal control
                  weaknesses that undermine confidence in Sandia’s ability to assure
                  that laptop, desktop, and related computer equipment is
                  appropriately controlled and adequately safeguarded from loss or
                  theft and that classified computer use meets security standards.
                  Specifically, we found that Sandia:

                  •   Used computer peripherals for classified processing without
                      appropriate accreditation;

                  •   Had no property controls for computers with a purchase price
                      below $1,000, to include computer peripherals connected to
                      classified systems, which could weaken the accountability and
                      control of sensitive and classified information; and

                  •   Had not effectively implemented property management
                      controls for computers built in-house or procured with
                      purchase cards.




Page 2                                           Observations and Conclusions
Details of Findings

NONACCREDITED                       Sandia used computer peripherals for classified processing
PERIPHERAL                          without appropriate accreditation. Computer peripherals include
DEVICES                             personal digital assistants (PDAs) and personal electronic devices
                                    (PEDs). In at least two instances, computer peripherals were
                                    connected to a classified system without appropriate accreditation.

                                    Accreditation, which is required by DOE M 471.2-2, “Classified
                                    Information Systems Security Manual,” is the authorization by a
                                    designated approval authority that a computer can be used to
                                    process classified information in a specific environment, based on
                                    the computer meeting pre-specified technical requirements for
                                    achieving adequate data security. All systems are to be reviewed
                                    and accredited before they become operational to ensure the
                                    appropriate level of confidentiality, availability, and integrity of
                                    classified information to be processed on the systems. The use of
                                    PDAs/PEDs to process classified information before they are
                                    accredited violates DOE requirements designed to ensure that
                                    national security interests are protected.

                                    Sandia computer security personnel told us at the time of our
                                    on-site inspection that no accreditation paperwork had been
                                    prepared for the PDAs/PEDs, but that they would take action to
                                    correct this condition. Subsequent to this discussion, Sandia
                                    officials took corrective action and provided the Office of
                                    Inspector General with the appropriate accreditation
                                    documentation.

PROPERTY                            Sandia had no property controls for computers and computer
MANAGEMENT                          peripherals with a purchase price below $1,000, to include those
CONTROLS                            accredited for classified processing. As such, the accountability
                                    and control over sensitive and classified information at Sandia is
                                    affected. Specifically, in August 1996, DOE authorized Sandia to
                                    eliminate property management controls on sensitive items1 with a
                                    purchase price below $1,000. Subsequently, computers and
                                    computer peripherals with a purchase price below $1,000 were not
                                    assigned property numbers and were not tracked in Sandia’s
                                    property inventory.

                                    The authorization to eliminate property management controls
                                    excluded those items “where the primary determinant of their
                                    designation as sensitive property was based solely on the type of

1
  The Code of Federal Regulations (CFR), 41 CFR 109, defines “sensitive items” as those items of personal
property that are considered to be susceptible to being appropriated for personal use or that can be readily converted
to cash. Examples include firearms, computers, cameras, and portable tools.



Page 3                                                                                       Details of Findings
                          item,” such as “firearms, notebook computers, and cell phones.”
                          We determined that Sandia eliminated property management
                          controls on all computers with a purchase price below $1,000,
                          which we believe circumvents the intent of DOE guidelines, and
                          created a property management control system different than other
                          comparable DOE sites.

                          Then, in April 1998, DOE authorized Sandia to eliminate property
                          management controls on sensitive items that exceed their service
                          life. This authorization was based on a Sandia cost/benefit
                          analysis that showed an anticipated annual cost avoidance of
                          $311,743 if sensitive item property control requirements were
                          relaxed. The cost/benefit analysis stated that “current” losses due
                          to shortage and theft amounted to only $12,736 annually for
                          sensitive items.

                          However, these authorizations may no longer be relevant given the
                          substantial changes in computing technology since 1996 and the
                          corresponding increase in computer security concerns. Since
                          1996, the power and memory of computers has dramatically
                          increased, while their cost has significantly decreased. In addition,
                          new and inexpensive devices, such as computer peripherals, have
                          been created that have the ability to store large amounts of
                          classified and unclassified information. By not tracking computers
                          and computer peripherals with an acquisition cost below $1,000, or
                          that have exceeded their service life, Sandia is unable to report the
                          loss or theft of such equipment or to conduct appropriate inquiries
                          to determine the disposition of sensitive or classified information
                          when the equipment cannot be located.

OTHER PROPERTY    Sandia had not effectively implemented property management
MANAGEMENT ISSUES controls for computers built in-house or procured with purchase
                  cards. We determined that Sandia personnel built at least two
                  computers in-house from parts obtained through purchase card
                  acquisitions and used these computers for classified processing.
                  Although these computers were accredited, they were never
                  assigned a Sandia property number and were not tracked in the
                  Sandia property inventory.

                          Under Sandia’s property management policy, sensitive property
                          that is assembled from parts with an acquisition cost less than
                          $1,000 must be assigned a property number tag and must be
                          tracked in Sandia’s Fixed Assets Database when the value of the
                          assembled item is $1,000 or greater. However, in the case of the
                          two computers that were built in-house, we determined that Sandia


Page 4                                                                    Details of Findings
                  made no assessment of the value of these computers after assembly
                  to justify not tracking them in the Sandia Fixed Assets Database.
                  The computers subsequently were placed into service and
                  processed classified information without property controls. While
                  we were not able to identify the actual cost of the parts used to
                  assemble these computers, we believe the value of the assembled
                  items was in excess of $1,000.

                  In addition, contrary to policy, Sandia continues to allow the
                  acquisition of computers through the use of purchase cards.
                  Sandia purchase card policy developed in 1997 prohibited the use
                  of purchase cards for the acquisition of computers with a cost of
                  $1,000 or more. However, for example, between May 2000 and
                  March 2003, Sandia authorized 32 one-time exceptions and 18
                  blanket exceptions to this policy.

                  In March 2003, Sandia revised its policy to prohibit the use of
                  purchase cards for the acquisition of desktop and laptop
                  computers, regardless of cost. The policy states that purchase card
                  procurements of property, to include computers, would only be
                  authorized in exceptional circumstances (i.e., there was no other
                  procurement mechanism available or it was a mission critical
                  purchase with proper authorization). However, since this policy
                  went into effect, Sandia has authorized 11 one-time exceptions and
                  1 blanket exception.

RECOMMENDATIONS   We recommend that the Manager, Sandia Site Office, take
                  appropriate action to ensure that:

                  1. All computing devices connected to classified systems at
                     Sandia are accredited according to DOE policy prior to
                     classified processing.

                  2. The authorization to eliminate property management controls
                     for sensitive property with an acquisition value under $1,000 at
                     Sandia is re-evaluated.

                  3. All computers constructed by Sandia are assessed to determine
                     their value after assembly, and property numbers are assigned
                     in accordance with property management thresholds.

                  4. Sandia re-evaluates the exception process for using purchase
                     cards to acquire computers.




Page 5                                                          Recommendations
             5. The issues raised in this report are considered in the next Site
                Office evaluation of Sandia’s property management
                performance measures.

MANAGEMENT   In comments on our draft report, management concurred with our
COMMENTS     recommendations and stated that corrective actions have been
             taken or are underway.

INSPECTOR    We found management’s comments to be responsive to our report.
COMMENTS     We note that an attachment to management’s response identified a
             concern with the number of exceptions to Sandia’s restrictions on
             using purchase cards to procure computers that we reported. We
             clarified the language in this section of the report and confirmed
             the accuracy of the revised language with Sandia staff.




Page 6                               Management and Inspector Comments
Appendix A

SCOPE AND     We conducted the fieldwork portion of our review from
METHODOLOGY   December 2002 to April 2004. Our review included interviews
              with DOE officials from the National Nuclear Security
              Administration Service Center and the Sandia Site Office, officials
              from Sandia Property and Computer Security Divisions, and
              subcontractor employees. We also reviewed applicable policies
              and procedures regarding property management.

              Also, pursuant to the “Government Performance and Results Act
              of 1993,” we reviewed Sandia’s performance measurement
              processes as they relate to management controls over personal
              property.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                                Scope and Methodology
Appendix B




Page 8       Management Comments
Page 9   Management Comments
Page 10   Management Comments
Page 11   Management Comments
                                                                    IG Report No. DOE/IG-0660

                           CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
